Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


 ALABAMA RECEIVED MILLIONS
IN UNALLOWABLE PERFORMANCE
    BONUS PAYMENTS UNDER
    THE CHILDREN’S HEALTH
     INSURANCE PROGRAM
     REAUTHORIZATION ACT


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                      August 2013
                                                     A-04-12-08014
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Of the performance bonus payments Alabama received for fiscal years 2009 and 2010
 under the Children’s Health Insurance Program Reauthorization Act, more than
 $88 million (92 percent) was unallowable.

WHY WE DID THIS REVIEW

The Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA) directly
affects both the Children’s Health Insurance Program and Medicaid. Under CHIPRA, Congress
appropriated $3.225 billion for qualifying States to receive performance bonus payments (bonus
payments) for Federal fiscal years (FYs) 2009 through 2013 to offset the costs of increased
enrollment of children in Medicaid.

We reviewed the bonus payments that Alabama received for FYs 2009 and 2010 because the
amounts of the payments were relatively high compared with those of other States receiving
bonus payments. Alabama received $95 million (34 percent) of the $281 million in bonus
payments made to all States for these 2 years.

Our objective was to determine whether the bonus payments Alabama received were allowable
in accordance with Federal requirements.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program at the
Federal level and is the agency responsible for determining whether a State meets the
requirements to receive a bonus payment and, if so, what the amount of a State’s bonus payment
should be. CMS makes its determinations on the basis of, in part, Medicaid enrollment
information provided by the States in their requests for bonus payments. The Alabama Medicaid
Agency (State agency) administers Alabama’s Medicaid program and is the State agency that
requested the bonus payments Alabama received for FYs 2009 and 2010.

A State is eligible for a bonus payment if it, among other requirements, increases its current
enrollment of qualifying children (current enrollment) above the baseline enrollment of
qualifying children (baseline enrollment) for a given year as specified in CMS guidance.

WHAT WE FOUND

The majority (92 percent) of bonus payments that Alabama received for FYs 2009 and 2010 was
not allowable in accordance with Federal requirements. Although most of the data elements
used in the bonus payment calculations were in accordance with Federal requirements, the State
agency overstated its FYs 2009 and 2010 current enrollment in its requests for bonus payments.
The State agency overstated its current enrollments because, rather than reporting a monthly
average enrollment of qualifying children, it reported to CMS the total number of all qualifying
children that had been enrolled in its program for each year reviewed. As a result, CMS
overpaid Alabama $88,197,498 in bonus payments.

Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                        i
WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $88,197,498 to the Federal Government and

    •   ensure that future requests for bonus payments are calculated using the monthly average
        number of qualifying children and not the total number per year of qualifying children in
        Alabama Medicaid, to comply with Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second
recommendation and disagreed with our first recommendation to refund $88,197,498 to the
Federal Government. The State agency acknowledged engaging in extensive discussion with us
about Medicaid enrollment data sources and information systems. However, the State agency
said that, at this time, it believes that its public resources would best be expended in further
discussions with CMS and through continuing use of innovative efforts to enroll and retain all
eligible Alabama children in Medicaid.

OFFICE OF INSPECTOR GENERAL RESPONSE

After review and consideration of the State agency’s comments, we maintain that our findings
and recommendations are appropriate. In our discussions, the State agency raised concerns
about the current and baseline enrollment numbers that we used to calculate the bonus payments.

Our calculation of the bonus payments that Alabama should have received for FYs 2009 and
2010 was based on Federal requirements, and we used enrollment data that were available and
current at the time that the State agency requested the bonus payments. We will share our
supporting information with CMS to assist the State agency and CMS in reaching resolution.




Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                        ii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objective ........................................................................................................................... 1

          Background ....................................................................................................................... 1
                The Medicaid Program: How It Is Administered ................................................ 1
                Bonus Payments .................................................................................................... 1

          How We Conducted This Review..................................................................................... 2

FINDINGS             ............................................................................................................................... 2

          Alabama Received More Than $88 Million in Unallowable Bonus Payments ................ 2

          The State Agency Did Not Calculate Current Enrollment in Accordance With
           Federal Requirements .................................................................................................... 3

RECOMMENDATIONS .............................................................................................................. 4

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
 RESPONSE ............................................................................................................................... 4

          State Agency Comments ................................................................................................... 4

          Office of Inspector General Response .............................................................................. 4

APPENDIXES

          A: Current Enrollment Calculations ................................................................................ 5

          B: Audit Scope and Methodology.................................................................................... 6

          C: Federal Requirements Related to Bonus Payments .................................................... 8

          D: State Agency Comments ........................................................................................... 12




Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                                                                              iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA) directly
affects both the Children’s Health Insurance Program and Medicaid. Under CHIPRA, Congress
appropriated $3.225 billion for qualifying States to receive performance bonus payments (bonus
payments) for Federal fiscal years (FYs) 2009 through 2013 to offset the costs of increased
enrollment of children in Medicaid.

We reviewed the bonus payments that Alabama received for FYs 2009 and 2010 because the
amounts of the payments were relatively high compared with those of other States receiving
bonus payments. Alabama received $95 million (34 percent) of the $281 million in bonus
payments made to all States for these 2 years.

OBJECTIVE

Our objective was to determine whether the bonus payments Alabama received were allowable
in accordance with Federal requirements.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. Each State administers its Medicaid program in accordance with an approved State
plan. Although the State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements. The Centers for Medicare
& Medicaid Services (CMS) administers the Medicaid program at the Federal level. The
Alabama Medicaid Agency (State agency) administers Alabama’s Medicaid program.

Bonus Payments

CHIPRA, P.L. No. 111-3, directly affects both the Children’s Health Insurance Program under
Title XXI of the Social Security Act (the Act) and Medicaid under Title XIX of the Act. Under
CHIPRA, qualifying States may receive bonus payments for FYs 2009 through 2013 to offset the
costs of increased enrollment of children in Medicaid. A State is eligible for a bonus payment if
it increased its current enrollment of qualifying children (current enrollment) above the baseline
enrollment of qualifying children (baseline enrollment) for a given year as specified in CMS
guidance. 1 A State must also have implemented at least five of the Medicaid enrollment and
retention provisions specified in CHIPRA.

1
  Bonus payments are two tiered and are based on the level of the State’s enrollment increase above the baseline
enrollment. The first-tier bonus payment is available for a State that increases its current enrollment up to
10 percent above the baseline enrollment in a year. A second-tier bonus payment is available for a State that
increases its current enrollment by more than 10 percent above the baseline enrollment in a year.

Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                                        1
CMS is responsible for determining whether a State meets the requirements to receive a bonus
payment and, if so, the amount of a State’s bonus payment. CMS makes its determinations on
the basis of, in part, Medicaid enrollment information provided by the State in its requests for
bonus payments. The State agency requested the bonus payments Alabama received for FYs
2009 and 2010. Appendix A contains the details of Alabama’s current enrollment calculations
for these 2 FYs.

HOW WE CONDUCTED THIS REVIEW

We reviewed the bonus payments that Alabama received for FYs 2009 and 2010, totaling
$39,752,546 and $55,600,871, respectively. Our review focused on verifying the accuracy of
enrollment information used in the bonus payment calculations and ensuring that the information
used complied with Federal requirements. We neither assessed the State agency’s internal
control structure beyond what was necessary to meet our objective nor reviewed the State
agency’s determinations of Medicaid eligibility. Also, we did not review whether the State
agency successfully implemented at least five of the Medicaid enrollment and retention
provisions because we determined that there was a low risk of noncompliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains the
Federal requirements related to bonus payments.

                                              FINDINGS

The majority (92 percent) of bonus payments that Alabama received for FYs 2009 and 2010 was
not allowable in accordance with Federal requirements. Although most of the data elements
used in the bonus payment calculations were in accordance with Federal requirements, the State
agency overstated its FYs 2009 and 2010 current enrollment in its requests for bonus payments.
The State agency overstated its current enrollments because, rather than reporting a monthly
average enrollment of qualifying children, it reported to CMS the total number of all qualifying
children that had been enrolled in its program for each year reviewed. As a result, CMS
overpaid Alabama $88,197,498 in bonus payments.

ALABAMA RECEIVED MORE THAN $88 MILLION IN
UNALLOWABLE BONUS PAYMENTS

The majority of bonus payments Alabama received for FYs 2009 and 2010 was not allowable.
Alabama received bonus payments of $39,752,546 and $55,600,871, respectively, for these 2
years. CMS calculated these bonus payments using the overstated current enrollment numbers
that the State agency reported.



Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                        2
Alabama should have received bonus payments of only $1,468,012 and $5,687,907 for FYs 2009
and 2010, respectively, as we determined by calculating the bonus payments using the correct
current enrollment numbers for these years. Therefore, of the total $95,353,417 in bonus
payments that Alabama received for these 2 years, $88,197,498 was not allowable.

                                Table 1: Alabama Bonus Payments

                                                   FY 2009     FY 2010       Total
          Bonus Payment Received                  $39,752,546 $55,600,871 $95,353,417
          Correct Bonus Payment                     1,468,012   5,687,907   7,155,919
           Bonus Payment Not Allowed              $38,284,534 $49,912,964 $88,197,498

THE STATE AGENCY DID NOT CALCULATE CURRENT ENROLLMENT IN
ACCORDANCE WITH FEDERAL REQUIREMENTS

The State agency reported current enrollment numbers of 474,473 and 516,469, respectively, for
FYs 2009 and 2010. These numbers represented Alabama’s total number of qualifying children
that had been enrolled for each FY. However, Federal requirements define current enrollment as
the monthly average number of qualifying children 2 for the current FY for which the State’s
bonus payment is being determined. Appendix A shows a comparison of the methodologies
used by both the State agency and OIG to calculate current enrollment.

To follow Federal requirements, the State agency should have reported current enrollment
numbers of 382,103 and 423,238, respectively, for these 2 years.

                             Table 2: Alabama Medicaid Enrollment

                          Current Enrollment             FY 2009      FY 2010
                          State-Reported Number           474,473      516,469
                          Correct Number                  382,103      423,238
                           Difference                      92,370       93,231

The State agency’s significant overstatement of current enrollment numbers for FYs 2009 and
2010 (over 92,000 and 93,000, respectively) caused CMS to calculate bonus payments for both
years that were considerably more than allowable. On the basis of the current enrollment
numbers that the State agency reported, CMS determined that Alabama qualified not only for a
“Tier 1” bonus but also for a “Tier 2” bonus under the bonus payment calculation methodology.
Qualifying for the Tier 2 bonus magnified the effect of the State agency’s enrollment
overstatement. Appendix C contains regulatory guidance on Tier 1 and Tier 2 bonus payment
calculations.




2
 CMS; State Health Official (SHO) Letter #09-015, CHIPRA #10: CHIPRA Bonus Performance Payments,
Appendix II; December 15, 2009.

Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                        3
                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $88,197,498 to the Federal Government and

    •   ensure that future requests for bonus payments are calculated using the monthly average
        number of qualifying children and not the total number per year of qualifying children in
        Alabama Medicaid, to comply with Federal requirements.

                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency’s comments are included in their entirety as Appendix D.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second
recommendation and disagreed with our first recommendation to refund $88,197,498 to the
Federal Government. The State agency acknowledged engaging in extensive discussion with us
about Medicaid enrollment data sources and information systems. However, the State agency
said that, at this time, it believes that its public resources would best be expended in further
discussions with CMS and through continuing use of innovative efforts to enroll and retain all
eligible Alabama children in Medicaid.

OFFICE OF INSPECTOR GENERAL RESPONSE

After review and consideration of the State agency’s comments, we maintain that our findings
and recommendations are appropriate. In our discussions, the State Agency raised concerns
about the current and baseline enrollment numbers that we used to calculate the bonus payments.

Our calculation of the bonus payments that Alabama should have received for FYs 2009 and
2010 was based on Federal requirements, and we used enrollment data that were available and
current at the time that the State agency requested the bonus payments. We will share our
supporting information with CMS to assist the State agency and CMS in reaching resolution.




Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                         4
               APPENDIX A: CURRENT ENROLLMENT CALCULATIONS

STATE AGENCY’S CALCULATION OF FISCAL YEARS 2009 AND 2010
CURRENT ENROLLMENT
The State agency calculated its current enrollment numbers for FYs 2009 and 2010 by obtaining
a total of qualifying children who were ever enrolled for each FY from its Medicaid enrollment
system.
                     Table 3: State Agency’s Reported Current Enrollment
                                    Total of Qualifying Children
                                   FY 2009               FY 2010
                                   474,473                516,469

OFFICE OF INSPECTOR GENERAL’S CALCULATION OF FISCAL YEARS 2009
AND 2010 CURRENT ENROLLMENT
In accordance with Federal requirements, we calculated the current enrollment numbers for
FYs 2009 and 2010 by:

    •   obtaining the count of qualifying children for each month from the CMS Medicaid
        Statistical Information System State Summary Datamart,

    •   summing the monthly count of qualifying children for the FY, and

    •   dividing the sum for each FY by 12 to obtain the monthly average number of qualifying
        children for the FY.

                        Table 4: Correct Current Enrollment Calculation
                                                       Qualifying Children
                        Month                       FY 2009             FY 2010
               Oct                                   368,572             407,823
               Nov                                   368,946             408,601
               Dec                                   368,676             408,755
               Jan                                   372,259             412,161
               Feb                                   376,148             415,065
               Mar                                   380,543             420,222
               Apr                                   383,609             424,624
               May                                   384,843             427,161
               Jun                                   387,854             430,251
               Jul                                   392,147             435,280
               Aug                                   397,887             442,157
               Sep                                   403,754             446,757
                Total                              4,585,238           5,078,857
                   Monthly Average
                      (Total/12)                     382,103                  423,238

Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                      5
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the bonus payments that Alabama received for FYs 2009 and 2010, totaling
$39,752,546 and $55,600,871, respectively. Our review focused on verifying the accuracy of
enrollment information used in the bonus payment calculations and ensuring that the information
used complied with Federal requirements. We neither assessed the State agency’s internal
control structure beyond what was necessary to meet our objective nor reviewed the State
agency’s determinations of Medicaid eligibility. Also, we did not review whether the State
agency successfully implemented at least five of the Medicaid enrollment and retention
provisions because we determined that there was a low risk of noncompliance.

We performed our fieldwork at the State agency offices in Montgomery, Alabama, and at CMS
offices in Baltimore, Maryland, from April through August 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements;

    •   met with CMS program management officials to discuss:

            o Medicaid enrollment and retention provisions for bonus payments,

            o program oversight, and

            o potential CMS concerns with the State agency’s compliance with Federal
              requirements;

    •   met with CMS financial management officials to obtain an understanding of the process
        that States should follow when requesting bonus payments;

    •   reviewed CMS’s detailed calculations 3 of Alabama’s bonus payments for FY 2009 and
        2010;

    •   verified supporting documentation for all data elements used in Alabama’s bonus
        payment calculations, including baseline enrollment and projected per capita State
        Medicaid expenditures;

    •   reviewed CMS’s oversight, validation, and approval processes for bonus payments;


3
 Appendix II of CMS’s SHO Letter, # 09-015, CHIPRA #10, describes the data elements, processes, and
methodologies for calculating the bonus payments.

Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                           6
    •   conducted a risk assessment of the State agency’s noncompliance with Federal
        requirements;

    •   met with State agency officials to:

            o discuss the State agency’s requests for bonus payments,

            o obtain correspondence between the State agency and CMS, and

            o understand the State agency’s methodology for determining the current
              enrollment it reported in its requests for bonus payments;

    •   analyzed the State agency’s documentation supporting its requests for bonus payments;

    •   reviewed State Medicaid enrollment system data;

    •   reviewed Alabama’s enrollment and expenditure data from the CMS Medicaid Statistical
        Information System State Summary Datamart;

    •   calculated Alabama’s FYs 2009 and 2010 current enrollment numbers; and

    •   recalculated Alabama’s bonus payments using correct, verified data.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                     7
                              APPENDIX C: FEDERAL REQUIREMENTS
                                 RELATED TO BONUS PAYMENTS

PURPOSE AND CALCULATION METHODOLOGY

Section 2105(a)(3) of the Act states that performance bonus payments are intended to offset
additional Medicaid and Children’s Health Insurance Program child enrollment costs resulting
from enrollment and retention efforts. The payments are made to a State for a FY as a single
payment not later than the last day of the first calendar quarter of the following FY. 4 Additional
guidance provided by CMS 5 requires that payments to qualifying States be made by
December 31 of the calendar year (CY) following the end of the FY for which the criteria were
implemented. The bonus payments are provided to a State through a grant award.

Section 2105(a)(3)(B) of the Act requires that the bonus payment amount available to a State for
any FY be equal to the sum of the following amounts:

           (i) First tier above baseline Medicaid enrollees. — An amount equal to the
           number of first tier above baseline child enrollees (as determined under
           subparagraph (C)(i)) under title XIX for the State and FY, multiplied by
           15 percent of the projected per capita State Medicaid expenditures (as determined
           under subparagraph (D)) for the State and FY under title XIX.

           (ii) Second tier above baseline Medicaid enrollees. — An amount equal to the
           number of second tier above baseline child enrollees (as determined under
           subparagraph (C)(ii)) under title XIX for the State and FY, multiplied by
           62.5 percent of the projected per capita State Medicaid expenditures (as
           determined under subparagraph (D)) for the State and FY under title XIX.

ENROLLMENT AND RETENTION PROVISIONS

Sections 2105(a)(4)(A-H) of the Act require a State to implement at least five of these
enrollment and retention provisions throughout the FY to qualify for a bonus payment: allowing
continuous eligibility, liberalizing asset requirements, eliminating an in-person interview
requirement, using joint applications for Medicaid and the Children’s Health Insurance Program,
using automatic (or administrative) renewals, using presumptive eligibility for children, using an
express lane, and using premium assistance subsidies. Our audit did not include verification of
the implementation of these programmatic goals, but we include them here to provide context for
the bonus payments:

           (A) Continuous eligibility. – The State has elected the option of continuous
           eligibility for a full 12 months for all children described in section 1902(e)(12)
           under title XIX under 19 years of age….

4
    Section 2105(a)(3)(A) of the Act.
5
    CMS, SHO Letter #09-015, CHIPRA #10.


Alabama Received Millions in Unallowable Performance Bonus Payments Under the Children’s Health Insurance
Program Reauthorization Act (A-04-12-08014)                                                               8
        (B) Liberalization of asset requirements. –
               (i) …The State does not apply any asset or resource test for eligibility for
               children under title XIX or this title.

                (ii) …The State. –
                       (I) permits a parent or caretaker relative who is applying on behalf
                       of a child for medical assistance … to declare and certify by
                       signature under penalty of perjury information relating to family
                       assets for purposes of determining and redetermining financial
                       eligibility; and
                       (II) takes steps to verify assets through means other than by
                       requiring documentation from parents and applicants except in
                       individual cases of discrepancies or where otherwise justified.

        (C) Elimination of in-person interview requirement. – The State does not require
        an application … to be made in person nor does the State require a face-to-face
        interview, unless there are discrepancies or individual circumstances justifying an
        in-person application or face-to-face interview.

        (D) Use of joint application for Medicaid and [the Children’s Health Insurance
        Program]. – The application form and supplemental forms (if any) and
        information verification process is the same for purposes of establishing and
        renewing eligibility….

        (E) Automatic renewal (use of administrative renewal). –
               (i) …The State provides, in the case of renewal of a child’s eligibility for
               medical assistance … a pre-printed form completed by the State based on
               the information available to the State and notice to the parent or caretaker
               relative of the child that eligibility of the child will be renewed and
               continued based on such information unless the State is provided other
               information. Nothing in this clause shall be construed as preventing a
               State from verifying, through electronic and other means, the information
               so provided.

                (ii) Satisfaction through demonstrated use of ex parte process. – A State
                shall be treated as satisfying the requirement of clause (i) if renewal of
                eligibility of children … is determined without any requirement for an
                in-person interview, unless sufficient information is not in the State’s
                possession and cannot be acquired from other sources (including other
                State agencies) without the participation of the applicant or the applicant’s
                parent or caretaker relative.

        (F) Presumptive eligibility for children. – The State is implementing section
        1920A under title XIX as well as, pursuant to section 2107(e)(1), under this title.




Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                     9
           (G) Express lane. – The State is implementing the option described in section
           1902(e)(13) under title XIX as well as, pursuant to section 2107(e)(1), under this
           title.

           (H) Premium assistance subsidies. – The State is implementing the option of
           providing premium assistance subsidies under section 2105(c)(10) or section
           1906A.

DEFINITIONS OF TERMS

Baseline Number of Child Enrollees

Section 2105(a)(3)(C)(iii)(I) of the Act states that the baseline number of child enrollees for
FY 2009 “is equal to the monthly average unduplicated number of qualifying children enrolled
in the State plan under title XIX during FY 2007 increased by the population growth for children
in that State from 2007 to 2008 (as estimated by the Bureau of the Census) plus 4 percentage
points, and further increased by the population growth for children in that State from 2008 to
2009 (as estimated by the Bureau of the Census) plus 4 percentage points….”

For each of FYs 2010, 2011, and 2012, the baseline number of child enrollees “is equal to the
baseline number of child enrollees for the State for the previous FY under title XIX, increased by
the population growth for children in that State from the CY in which the respective FY begins
to the succeeding CY (as estimated by the Bureau of the Census) plus 3.5 percentage points.” 6

Per Capita State Medicaid Expenditures

Section 2105(a)(3)(D) of the Act defines projected per capita State Medicaid expenditures as:

           … the average per capita expenditures (including both State and Federal financial
           participation) for children … but not including children eligible for assistance by
           virtue of receipt of benefits under title XVI, for the most recent FY for which
           actual data are available (as determined by the Secretary), increased by the annual
           percentage increase in per capita amount of National Health Expenditures (as
           estimated by the Secretary) for the CY in which the respective subsequent FY
           ends and multiplied by a State matching percentage … for the FY involved.

Qualifying Children

Section 2105(a)(3)(F)(i) of the Act defines “qualifying children” as “children who meet the
eligibility criteria (including income, categorical eligibility, age, and immigration status criteria)
in effect as of July 1, 2008, for enrollment under title XIX, taking into account criteria applied as
of such date under title XIX pursuant to a waiver under section 1115.” A child who is
“provided medical assistance during a presumptive eligibility period under section 1920A must
be considered a ‘qualifying child’ only if the child is determined to be eligible for medical

6
    Section 2105(a)(3)(C)(iii)(II) of the Act.


Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                         10
assistance under title XIX.” The term “qualifying children” does not include children “for whom
the State has made an election to provide medical assistance under paragraph (4) of section
1903(v) or any children enrolled on or after October 1, 2013.” 7




7
    Section 2105(a)(3)(F)(ii) and (iii) of the Act.

Alabama Received Millions in Unallowable Performance Bonus Payments Under
the Children’s Health Insurance Program Reauthorization Act (A-04-12-08014)                  11
                                  APPENDIX D: STATE AGENCY COMMENTS

                                     Alabama Medicaid Agency
                                                      501 Dexter Avenue 

                                                        P.O. Box 5624 

                                                Montgomery, Alabama 36103-5624 

                                                        www.medicaid.alabama.gov 

                                                e-mail: almedicaid@medicaid.alabama.gov 


 ROBERT BENTLEY                                   Telecommunication for the Deaf: 1-800-253-0799                        STEPHANIE MCGEE AZAR
      Governor                                          334-242-5000       1-800-362-1504                                 Acting Commissioner


    May 17,2013

    LoriS. Pilcher 

    Regional Inspector General for Audit Services 

    Office of Audit Services, Region IV 

    Office of Inspector General 

    U.S. Department of Health and Human Services 

    61 Forsyth Street, SW, Suite 3T41 

    Atlanta, GA 30303 


    Re:        Draft Audit Report Number A-04-12-08014

    Dear Ms. Pilcher:

    The Alabama Medicaid Agency (Alabama Medicaid) welcomes the opportunity to comment on
    the recommendations contained in the draft report from the Office oflnspector General (OIG)
    entitled "Alabama Received Millions in Unallowable Performance Bonus Payments Under the
    Children's Health Insurance Program Reauthorization Act" (Draft Report). The State of Alabama
    has and continues to do exemplary work towards identifying and enrolling all eligible children in
    Medicaid and the Children's Health Insurance Program (CHIP). In fact, the State has served as a
    national leader in its efforts to streamline and simplify enrollment processes for children.

    Alabama Medicaid remains dedicated to working with the Centers for Medicare & Medicaid
    Services (CMS) to identify and verify data pertinent to the bonus program established by the
    Children's Health Insurance Program Reauthorization Act of2009 (CHIPRA), Pub. L. No. 111­
    3, § 104, 123 Stat. 8, 17 (adding Social Security Act§ 2105(a)(3)-(4), codified at 42 U.S.C.
    § 1397ee(a)(3)-(4)). As requested in your letter dated February 28, 2013, Alabama Medicaid is
    providing a statement of concurrence or non-concurrence to each of the two recommendations
    contained in the Draft Report. Please accept this revised response to the Draft Report.

              •          OIG Recommendation 1: Refund $88,197,498 to the Federal Government.

                         Alabama Medicaid Comment: Alabama Medicaid respectfully disagrees with
                         OIG's recommendation. Alabama Medicaid believes that it qualified for the
                         bonuses at issue. CMS has worked closely with Alabama Medicaid in preparing
                         the State's yearly bonus application in compliance with federal requirements since
                         the State's first submission in 2009.




Our Mission -to provide a system of financing health care for eligible Alabamians in accordance with established statutes and Executive Orders.

    Alabama Received Millions in Unallowable Performance Bonus Payments Under the 
                                                          12
    Children's Health Insurance Program Reauthorization Act (A -04-12-08014) 

Lori Pilcher
May 16,2013
Page two

                Even if one assumes for the sake of argument that certain of the bonuses paid to
                Alabama Medicaid in fiscal years (FYs) 2009 and 2010 were unallowable,
                Alabama Medicaid respectfully disagrees with the revised bonus amounts
                calculated by the Draft Report. For over a year, Alabama Medicaid and OIG have
                engaged in extensive, good-faith discussions about complex retrospective
                analyses of various Medicaid enrollment data sources and information systems. In
                support of this considerable effort, Alabama Medicaid enlisted the aid of
                Mathematica and Optumas Actuarial Services to analyze the State's Medicaid
                enrollment data and bonus calculations. While the State remains dedicated to
                capturing each and every qualified child in the bonus calculations, the
                reconstruction and validation of historical enrollment data from disparate
                information systems has proven a costly and time-intensive endeavor. Recent
                discussions with OIG have delved into complicated statistical minutiae that do not
                affect the Draft Report's ultimate recommendation. Therefore, at this time,
                Alabama Medicaid believes that public resources would best be expended in
                further discussions with CMS and through the continuing use of innovative efforts
                to enroll and retain all eligible Alabama children in Medicaid.

        •	      OIG Recommendation 2: Ensure that future requests for bonus payments are
                calculated using the monthly average unduplicated number of qualifying children
                and comply with federal requirements.

                Alabama Medicaid Comment: Alabama Medicaid concurs with this
                recommendation, and has ensured that its bonus applications for FYs 2011 and
                2012 were calculated using the monthly average unduplicated number of
                qualifying children.


Thank you again for the opportunity to discuss the recommendations contained in OIG's Draft
Report. If you have any questions regarding the above comments , please contact Mr. Flake
Oakley at Flake.Oakley@medicaid.alabama.gov.

Sincerely,

       ~A-~
Stephanie McGee Azar
Acting Commissioner




Alab ama Received Millions in Unallowable Performance Bonus Payments Under th e                 13
Children 's Health Insurance Program Reauthorization Act (A -04-12-08014)
